Office of
Inspector
General

             Semiannual
             Report to the
             Congress

             April 1, 2005
             September 30, 2005

Railroad
Retirement
Board
                     TABLE OF CONTENTS

                              CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               2


OFFICE OF AUDIT

Mission . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    4

Report Summaries . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             5

Audits: Management Decisions and Implementation . . . . . . . . . . . . . .                                 16 


OFFICE OF INVESTIGATIONS

Mission . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   17 

Accomplishments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           18 

Investigative Cases . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         19 

Representative Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               21 

Affirmative Civil Enforcement Program . . . . . . . . . . . . . . . . . . . . . . . . .                     30 

Hotline Calls . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     31 


LEGISLATIVE AND REGULATORY REVIEW . . . . . . . . . . . . . . . . . .                                       32 


APPENDICES

(A) OIG Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              33 

(B) OIG Reports with Recommendations that Questioned Costs and

     Recommendations that Funds Be Put To Better Use . . . . . . . . . .                                    35 

(C) Report on Receivables, Waivers, and Recoveries . . . . . . . . . . . . .                                36 

(D) RRB Management Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    37 

(E) Cross References to Inspector General Act . . . . . . . . . . . . . . . . . .                           42 





                 All reports are available via the Internet at http://www.rrb.gov
   Semiannual Report to the Congress for the period April 1, 2005 - September 30, 2005




EXECUTIVE SUMMARY

Audit Activities
                        During the reporting period of April 1 - September 30, 2005, the
                        Office of Audit completed the Fiscal Year (FY) 2005 evaluation
                        of information security. Auditors identified two new significant
                        deficiencies in the agency’s security program. (A summary of
                        auditors’ findings can be found on page 5.) Previously
                        identified deficiencies in training and access controls continue.
                        Auditors informed agency officials that such deficiencies in
                        information security management are subject to reporting as
                        material weaknesses under the Federal Managers’ Financial
                        Integrity Act.

                        As the result of a previous OIG audit, the RRB realized
                        additional monies in the financial interchange with the Social
                        Security Administration. To account for uncollectible benefit
                        overpayments written off in calendar years 1997-2003, a total
                        of $8 million was added to the FY 2004 transfer.

                        Auditors also identified $2.6 million in overpayments and
                        underpayments during a review of retired employee work
                        deductions (see page 8).


Investigative Accomplishments
                        The Office of Investigations achieved 28 convictions, 35
                        indictments and informations, 12 civil judgements, and $1.9
                        million in recoveries, restitutions, fines, civil damages, and
                        penalties.




                                           1
   Semiannual Report to the Congress for the period April 1, 2005 - September 30, 2005




INTRODUCTION

Railroad Retirement Board
                        The Railroad Retirement Board (RRB) is an independent
                        agency in the executive branch of the Federal government that
                        is headed by a three member Board appointed by the President
                        of the United States, with the advice and consent of the
                        Senate. One member is appointed upon the recommendation
                        of railroad employers, one is appointed upon the
                        recommendation of railroad labor organizations, and the third,
                        who is the Chairman, is appointed to represent the public
                        interest.

                        The agency administers comprehensive retirement-survivor
                        and unemployment-sickness insurance benefit programs for
                        the nation's railroad workers and their families under the
                        Railroad Retirement and Railroad Unemployment Insurance
                        Acts. The RRB also has administrative responsibilities under
                        the Social Security Act for certain benefit payments and
                        Medicare coverage for railroad workers.

                        During FY 2004, the RRB paid approximately $9 billion in
                        retirement and survivor benefits to some 649,000 beneficiaries,
                        while net unemployment and sickness insurance benefits of
                        $83 million were paid to almost 32,000 claimants. The RRB
                        also administers its own Medicare Part B program through a
                        single carrier, Palmetto GBA. The carrier made payments
                        totaling $923 million to provide medical insurance benefits for
                        551,000 beneficiaries.




                                           2
   Semiannual Report to the Congress for the period April 1, 2005 - September 30, 2005




Office of Inspector General

                        The Office of Inspector General (OIG) has the responsibility for
                        promoting economy, efficiency and effectiveness in the
                        programs of the Railroad Retirement Board. The office is also
                        charged with the detection, prevention and elimination of fraud,
                        waste and abuse in agency operations. To accomplish its
                        mission, the OIG conducts audits, management reviews and
                        investigations.

                        The Railroad Retirement Solvency Act of 1983 established the
                        Office of Inspector General at the Railroad Retirement Board
                        by naming the agency as “one of such establishments”
                        identified under Section 2 of the Inspector General Act of 1978.
                        The Inspector General Act Amendments of 1988 added the
                        RRB to the list of agencies covered by the Inspector General
                        Act.

                        The OIG has 53 employees assigned to three operational
                        components: the immediate office of the Inspector General,
                        the Office of Audit, and the Office of Investigations. The office
                        conducts operations from two locations: the headquarters of
                        the Railroad Retirement Board in Chicago, Illinois, and an
                        investigative field office in Philadelphia, Pennsylvania.




                                           3
      Semiannual Report to the Congress for the period April 1, 2005 - September 30, 2005




OFFICE OF AUDIT

The Office of Audit (OA) conducts audits and reviews to promote economy, efficiency, and
effectiveness in the administration of RRB programs, and to detect and prevent waste,
fraud, and abuse in such programs. Through the Inspector General, the office ensures
that the Board Members and Congress are informed of current and potential problems in
the RRB’s programs and operations, and advised of recommended improvements, as well
as the status of corrective actions. OA examines programmatic, financial, and
administrative aspects of RRB operations.

During this semiannual reporting period, the RRB realized additional monies in the annual
financial interchange (FI) with the Social Security Administration as a result of an earlier
OIG audit. Because the FI is a major source of funding for benefits payable under the
Railroad Retirement Act, the audit had recommended that unrecovered overpayments be
included in the FI calculation. To account for uncollectible benefit overpayments written
off in calendar years 1997-2003, a total of $8 million was added to the FY 2004 transfer.

OA continued monitoring the agency’s information systems security activities, and
expressed serious concern to RRB management about the continued delays in agency
efforts to address identified weaknesses. Without completion of planned corrective
actions, the agency will be unable to eliminate information security as a material
weakness in agency operations. Auditors completed the FY 2005 evaluation of
information security, and a review of access controls in the end-user computing general
support system. The OIG also contracted for information security control tests and
evaluations.

Audits and evaluations were also completed concerning internal controls in selected
areas, annuity payment issues, and compliance with the Prompt Payment Act. Auditors
identified approximately $2.6 million in overpayments and underpayments during a review
of retired employee work deductions (see page 8).

Discussion of completed reviews, major findings and recommendations for corrective
actions follow.



                                              4
   Semiannual Report to the Congress for the period April 1, 2005 - September 30, 2005



FISCAL YEAR 2005 EVALUATION OF
 INFORMATION SECURITY

                        Auditors performed the annual evaluation of the agency’s
                        information security to meet the requirements of the Federal
                        Information Security Management Act of 2002 (FISMA). The
                        legislation requires that the OIG test the effectiveness of
                        information security, policies, procedures and practices of a
                        representative subset of the RRB’s information systems, and
                        assess compliance with FISMA requirements and related
                        information security policies, procedures, standards and
                        guidelines.

                        The OIG audited access controls in the RRB’s end-user
                        computing general support system and retained technical
                        specialists to perform additional security tests and evaluations
                        of the agency’s local area network, and internet operations in
                        two major application systems. Details of these reviews follow
                        the discussion of this evaluation. Auditors also reviewed the
                        results of prior audits and evaluations of information security
                        during FYs 2000-2005, including the status of related
                        recommendations for corrective action.

                        This evaluation identified two new significant deficiencies in the
                        agency’s security program as a result of delays in meeting
                        FISMA requirements. The RRB has made little progress in
                        implementing an effective risk assessment process, and efforts
                        to implement a consistent, FISMA compliant testing and
                        evaluation process have not been successful. Agency
                        management has set a target date of November 2005 for
                        completion of a standardized risk assessment format in
                        accordance with standards issued by the National Institute of
                        Standards and Technology. No date has been set for
                        completion of risk assessments. The OIG previously
                        addressed the weaknesses in the risk assessment process;
                        agency corrective action is pending.



                                           5
   Semiannual Report to the Congress for the period April 1, 2005 - September 30, 2005


                        Previously cited significant deficiencies in training and access
                        controls continue. Auditors also identified reportable conditions
                        resulting from weaknesses in the agency’s implementation of
                        requirements for risk based policies and procedures; a
                        remedial action process for addressing deficiencies in
                        information security policies, procedures, and practices; plans
                        for continuity of operations; and a reliable inventory that
                        identifies component applications in the end-user computing
                        general support system, related server locations and the
                        security administrators.

                        Auditors informed management that the significant deficiencies
                        in information security management are subject to reporting as
                        material weaknesses under the Federal Managers’ Financial
                        Integrity Act.



REVIEW OF ACCESS CONTROLS IN THE END-USER
 COMPUTING GENERAL SUPPORT SYSTEM

                        As part of the annual security evaluation required by FISMA,
                        auditors assessed current RRB controls over initial access to
                        the agency’s end-user computing environment that supports
                        local and wide area networks. Sampling tests were conducted
                        to determine the adequacy of controls for (1) granting access
                        privileges to employees, (2) restricting access to high-risk
                        system accounts only to those users who require such access
                        for the performance of their current job, and (3) limiting access
                        to certain accounts that were not otherwise subject to audit
                        evaluation because they were not employee user accounts or
                        high risk accounts. Auditors also examined the division of key
                        duties and responsibilities among different people to reduce the
                        risk of error or fraud, and the limiting of system access to
                        authorized users through the use of expiring passwords in user
                        accounts.




                                           6
       Semiannual Report to the Congress for the period April 1, 2005 - September 30, 2005


                            Weaknesses in the security infrastructure, implementation of
                            best practices, restriction of user privileges and account
                            management were identified. As a result of their findings,
                            auditors provided the agency’s Bureau of Information Services
                            with recommendations to address identified weaknesses.
                            Management agreed to take corrective action.



SECURITY AND EVALUATION REPORTS

                            At the request of the OIG, DSD Labs, Inc. conducted
                            information systems security control tests and evaluations of
                            the :

                            # RRB’s Local Area Network,

...	                        # Employer Reporting System (ERS), a system that provides
                            railroad employers the option to exchange information with and
                            submit required reports to the RRB using the Internet, and

...	                        # Railroad Unemployment Insurance Act Network (RUIANET),
                            an application that provide railroad workers with an Internet-
                            based option to apply for and claim unemployment benefits and
                            employment service under the Railroad Unemployment
                            Insurance Act.

                            The contractor also performed system scans to detect security
                            vulnerabilities such as insecure configurations, software
                            versions with exploitable flaws, weak passwords, bugs in
                            hardware and susceptibility to known attacks and exploits. The
                            review team recommended that the RRB incorporate all
                            National Institute of Standards and Technology security
                            management concepts into its information technology
                            operations. Other recommendations addressed identified
                            vulnerabilities related to system penetration testing, the lack of
                            password-cracking procedures to check for weak passwords,
                            weak configuration settings on some servers and routing
                            devices, and the need for additional virus scanning software.

                                               7
  Semiannual Report to the Congress for the period April 1, 2005 - September 30, 2005


                       At the close of this semiannual reporting period, agency
                       management had not responded to the report
                       recommendations.



RETIRED EMPLOYEE WORK DEDUCTIONS PRIOR
 TO FULL RETIREMENT AGE

                       When a railroad employee works after retirement from a
                       railroad, his/her railroad annuity may be impacted in one of
                       three ways:

                       ! If the retired employee works for a railroad employee or
                       railroad labor organization, the entire annuity is not payable.

                       ! A retired employee can work for a non-railroad employer and
                       still receive retirement benefits. However, benefits will be
                       reduced if earnings exceed certain limits and the annuitant is
                       under full retirement age.

                       ! If an annuitant works for his/her last pre-retirement non-
                       railroad employer (LPE), a portion of the retirement benefits is
                       reduced, regardless of the amount of earnings or age.

                       Annuitants who are under the full retirement age, work after
                       retirement, and expect their earnings will exceed an exempt
                       amount, must notify the RRB and furnish an estimate of
                       expected earnings to prevent an overpayment and penalty.
                       They must also notify the RRB if their original earnings
                       estimates change significantly.

                       Auditors evaluated the agency’s identification and application
                       of work deductions to employee retirement annuities. They
                       determined that, in general, the RRB is applying the work
                       deductions accurately and in a timely manner, but
                       recommended that the agency revise its selection criteria for
                       potential LPE status to expedite processing and better identify


                                          8
   Semiannual Report to the Congress for the period April 1, 2005 - September 30, 2005


                        all cases. A recommendation was also made that program
                        management develop official procedures for screening and
                        handling cases for possible work deductions. Management
                        has revised the criteria and agreed to develop the
                        recommended procedures.

                        Based on the sample results from their review, auditors
                        estimate the number of employee annuitants in current pay
                        status with incorrect payments or delayed processing is 1,518.
                        They also estimated a one-time financial impact of
                        approximately $2.6 million in overpayments and
                        underpayments.



EVALUATION OF SURVIVOR ANNUITY
 WORK DEDUCTIONS

                        Survivor annuities replace, in part, earnings lost to an individual
                        or a family as the result of the death of a covered worker. Such
                        annuities are payable to widows, widowers, and unmarried
                        children, and in certain cases, may also be payable to parents,
                        remarried widow(er)s, grandchildren and surviving divorced
                        spouses. Survivor annuitants who have not yet attained full
                        retirement age may be subject to deductions for any
                        employment earnings that exceed certain exempt amounts.

                        Auditors performed this review to determine if the agency
                        identifies and applies work deductions to survivor annuities
                        accurately and in a timely manner. The results of the
                        evaluation indicated that the incidence of unreported earnings
                        for survivor annuitants is relatively low. Auditors did
                        recommend improvements be implemented for applying the
                        survivor work deductions for cases involving corrected and
                        delayed reporting of earnings, cases rejected during the
                        computer data extractions with the Social Security
                        Administration (SSA), and manually processed cases with
                        temporary work deductions.


                                           9
   Semiannual Report to the Congress for the period April 1, 2005 - September 30, 2005




                        At present, the RRB receives annual earnings and employment
                        data for all annuitants from SSA in May and September
                        following the requested year. The RRB does not receive
                        earnings reported or corrected after the September extract.
                        Auditors recommended that the RRB revise the time frame for
                        the SSA request in order to capture corrected and late earnings
                        reports. Management concurred and, effective May 2006, will
                        request earnings for two prior years.



REVIEW OF CUSTOMER SERVICE PERFORMANCE
 MEASURES FOR TIMELINESS OF INITIAL RAILROAD
 RETIREMENT ANNUITY PAYMENTS

                        The Government Performance and Results Act of 1993
                        requires agencies to establish program goals, measure
                        program performance against the goals, and report on their
                        progress. Each agency must prepare an annual performance
                        plan for each program activity in its budget. The RRB includes
                        performance measures and the annual financial statement in
                        the Performance and Accountability Report. The FY 2004
                        report, that included 49 performance measures, provided
                        comparative data for FY 2004 and the three preceding years.

                        OIG auditors reviewed the agency’s performance measures
                        and supporting documentation for initial railroad retirement
                        annuity payments in the FY 2004 report to determine the
                        reliability and accuracy of the data reported. These measures
                        included initial annuity payments, both for advanced and non-
                        advanced filed applications.

                        Review findings indicated several major system flaws that
                        materially impacted the reported data: (1) an incorrect ending
                        date was used to compute the timeliness of agency processing
                        of substantially all applications; (2) the majority of applications



                                           10
   Semiannual Report to the Congress for the period April 1, 2005 - September 30, 2005


                        were incorrectly categorized by the system; and (3) the wrong
                        time lapse dates were captured for some applicants.

                        Auditors determined that the RRB had not properly evaluated
                        its progress in meeting two key customer service objectives
                        and reported inaccurate FY 2004 performance results for initial
                        retirement applications. Auditors also concluded that agency
                        oversight controls were insufficient to ensure that the RRB
                        management adequately monitors the agency’s strategic and
                        annual performance plans.

                        RRB management will implement system changes to
                        accurately capture voucher payment dates or letter dates, to
                        properly categorize applications, and to capture the correct
                        time lapse data. Management has also agreed to clarify
                        oversight responsibilities for ensuring the accuracy, reliability
                        and validity of performance data in future Performance and
                        Accountability Reports.



REVIEW OF INTERNAL CONTROL OVER
 BUDGET EXECUTION

                        The RRB’s Bureau of Fiscal Operations (BFO) is responsible
                        for preparing budget requests, recording budgetary
                        transactions and monitoring budget execution. The office
                        utilizes the Federal Financial System (FFS), a mainframe
                        application with an integrated budget subsystem to support
                        general ledger accounting and the recording and reporting of
                        budget transactions and approvals. Auditors examined the
                        effectiveness of current internal controls in ensuring that
                        agency budget transactions are properly recorded, summarized
                        and reported in accordance with applicable laws and
                        regulations. They determined that current controls do not
                        include: (1) effective separation of duties for recording and
                        approving transactions; (2) adequate supporting documentation



                                           11
Semiannual Report to the Congress for the period April 1, 2005 - September 30, 2005


                     for transactions and reports; and (3) controls to ensure timely
                     recording of obligations to the correct fiscal year are in place.

                     Tests identified that, during the first quarter of FY 2005, 37% of
                     budgetary transactions were entered and approved by the
                     same individual. Management implemented changes to
                     address this weakness and reduced the number to 17% in the
                     second and third quarters of the fiscal year. However, in order
                     to prevent such transactions in the future, auditors
                     recommended that the FFS system’s security settings be
                     modified.

                     Comprehensive supporting documentation for budgetary
                     transactions was not often maintained. Examination of current
                     procedures indicated a lack of steps for preparation and filing
                     of documentation for all transactions and reports. BFO
                     managers have agreed to implement procedures to require full
                     supporting documentation for all transactions beginning with
                     the first quarter of FY 2006.

                     The third weakness identified by auditors, the untimely
                     recording of obligations, resulted from a detailed examination
                     of selected transactions that identified 26 vendor invoices that
                     were paid from obligations recorded after services had begun
                     or goods were delivered. The lack of controls for the recording
                     of obligations may result in inaccurate information on current
                     agency obligations that could increase the agency’s risk for
                     violating the Anti-Deficiency Act. Management agreed to
                     implement controls to correct the problems, but rejected a
                     recommendation concerning controls for vendor invoices when
                     paid piecemeal.

                     Finally, OIG auditors questioned $8,300 that the agency had
                     paid for memberships in professional organizations during FYs
                     1999-2004. The agency’s Bureau of Law reviewed the issue
                     and advised that the membership fees paid prior to December
                     2001 were prohibited but such charges could be properly
                     approved for payment after December 2001. The staff
                     members affected by the ruling have requested waiver of


                                        12
   Semiannual Report to the Congress for the period April 1, 2005 - September 30, 2005


                        recovery for which no decision has been rendered. Auditors
                        also recommended that, in future, management provide training
                        on the limitations on the use of appropriated funds, and refer
                        the issue of an agency-wide policy on this issue to the
                        appropriate organizational component. Management
                        concurred.



REVIEW OF COMPLIANCE WITH THE
 PROMPT PAYMENT ACT

                        The Office of Management and Budget’s Bulletin 01-02, Audit
                        Requirements for Federal Financial Statements, requires that
                        certain provisions of the Prompt Payment Act be tested as part
                        of the annual audit of a Federal agency’s financial statements.
                        The Prompt Payment Act mandates that interest be paid to
                        commercial vendors when payments are issued after the
                        payment due date, and imposes restrictions on the early
                        payment of vendor invoices without management approval.
                        Agencies must perform annual quality assurance reviews to
                        assess their performance.

                        Auditors examined agency payments to vendors and
                        contractors made during a 27 month period, and determined
                        that the RRB is not in full compliance with the Prompt Payment
                        Act. Interest must be paid to vendors whose invoices are paid
                        after the due date. The agency did not identify all late
                        payments or pay all interest to vendors because its policies,
                        procedures and controls do not ensure the identification of all
                        invoices on which interest should be paid or the accurate
                        payment of interest. Auditors recommended that the agency
                        implement changes for entering correct dates and rates into
                        agency systems to avoid incorrect determinations of timeliness
                        and interest computations.

                        Instances of early payments were also identified. Although the
                        law limits the circumstances under which a Federal agency


                                           13
   Semiannual Report to the Congress for the period April 1, 2005 - September 30, 2005


                        may pay vendor invoices early, auditors identified non­
                        compliance with early payment restrictions and the lack of
                        controls to restrict early payments. As above,
                        recommendations were provided to management to implement
                        revisions to policies and procedures to correct the problem.

                        Auditors also cited the RRB for using an ineffective quality
                        assurance process for assessing compliance with the Prompt
                        Payment Act. The agency‘s annual quality assurance review of
                        vendor payments failed to disclose problems and does not
                        include follow-up to ensure identified weaknesses are
                        corrected. Recommendations were provided to improve the
                        process.

                        Management agreed to take action to address all weaknesses
                        identified in this review.



REVIEW OF INTERNAL CONTROL OVER THE
 ACTUARIAL PROJECTION PROCESS

                        The RRB=s Chief Actuary is responsible for the preparation of
                        the triennial actuarial valuation and interim updates of the
                        assets and liabilities of the railroad retirement program. This
                        valuation serves as the basis for (1) the agency=s annual
                        reports on the financial condition of the railroad retirement
                        system to the President and Congress, and (2) the statement of
                        social insurance published with the agency’s annual financial
                        statements.

                        Effective with FY 2006 financial reporting, the statement of
                        social insurance will be classified as a basic financial statement
                        and will be subject to more rigorous audit procedures, including
                        tests of internal control. Auditors performed this review to
                        determine the adequacy of controls over the actuarial process
                        that results in actuarial projections and published reports.



                                           14
Semiannual Report to the Congress for the period April 1, 2005 - September 30, 2005


                     Auditors determined that the Bureau of the Actuary lacks a
                     comprehensive system of internal control for actuarial services.
                     Although management and program staff described extensive
                     controls over the preparation of projections, estimates and
                     reports, they have not developed formal policies and
                     procedures, have not captured evidence of the operation of
                     controls, and have not performed periodic evaluations of
                     compliance with internal requirements. As a result, auditors
                     recommended that revisions be implemented to the internal
                     control program to ensure compliance with standards
                     established by the General Accountability Office (GAO). The
                     Chief Actuary agreed to review the control program for
                     compliance with GAO standards and to make changes if
                     needed.

                     The review also disclosed that the RRB’s management control
                     review program does not identify the weaknesses in the
                     internal control for actuarial services. The current process
                     does not provide responsible management with direction and
                     assistance in developing an effective system of internal control.
                     Auditors recommended the agency’s Management Control
                     Review Committee and the Bureau of the Actuary develop an
                     internal control assessment process for the actuarial services
                     assessable unit that meets agency and GAO standards for
                     internal control. Corrective action is scheduled for completion
                     by mid-2006.

                     Auditors also recommended that the Bureau of the Actuary
                     revise its workforce plan to include a professional development
                     program and revise the plan at least annually. Management
                     agreed to include a professional development program and to
                     revise its workforce plan as circumstances change.




                                        15
   Semiannual Report to the Congress for the period April 1, 2005 - September 30, 2005



MANAGEMENT DECISIONS AND IMPLEMENTATION

   The Office of Inspector General maintains the open audit follow-up system to track
   the status of corrective actions for all audit recommendations. Office of
   Management and Budget Circular No. A-50 (Revised) and the Inspector General
   Act Amendments of 1988 require the reporting of management decisions and
   corrective actions for all audit recommendations.



   Management Decisions for Recommendations



   Requiring a management decision on October 1, 2004                                      0

   Pending management decisions for new recommendations                                   45

   Management decisions for previous recommendations                                       0

   Recommendations pending a management decision
     on September 30, 2005                                                                45



   Corrective Actions

   Recommendations requiring action on April 1, 2005                                      88

   Recommendations issued during this period                                              97

   Corrective actions completed during the period                                        - 19

   Final actions pending on September 30, 2005                                           166




                                           16
      Semiannual Report to the Congress for the period April 1, 2005 - September 30, 2005




OFFICE OF INVESTIGATIONS

          INVESTIGATIONS

The Office of Investigations (OI) focuses on RRB benefit
program fraud. OI's primary objective is to identify and
investigate cases of waste, fraud and abuse in RRB programs
and refer them for prosecution and monetary recovery action.
Through its investigations, OI also seeks to prevent and/or deter
program fraud. In order to maximize the effect of its resources,
OI continues to pursue cooperative investigative activities and
coordination with other Inspectors General and law enforcement
agencies, which include the Social Security Administration-
Office of Inspector General, the Office of Personnel Management-Office of Inspector
General, the Federal Bureau of Investigation (FBI), the U.S. Secret Service, the Internal
Revenue Service, and the Postal Inspection Service.

During this reporting period, the Assistant Inspector General for Investigations (AIGI)
presented information at the RRB’s managers’ conference. The AIGI briefed the
managers on investigative activities and results, and the significance of agency personnel
in OI cases. He also informed the managers about recent fraud trends identified through
OI case work and office priorities.

OI also referred two matters that appeared to be program systemic issues to the OIG’s
Office of Audit. As a result, auditors initiated reviews and identified failure by agency
program officials to conduct certain program integrity operations resulting in benefit
overpayments and underpayments.

During their investigations, OI special agents identified various schemes used by
annuitants to conceal their earnings to avoid the earnings restrictions of the RRB disability
program. In order to address such fraudulent actions, the Inspector General provided the
agency’s Director of Programs with recommendations to improve monitoring of disability
annuitants’ earnings. As a result, program managers have agreed to review existing
forms and procedures to improve program integrity and maintain effective controls to
facilitate the detection of fraudulent activity.



                                              17
    Semiannual Report to the Congress for the period April 1, 2005 - September 30, 2005




INVESTIGATIVE ACCOMPLISHMENTS


                                                            04/01/05 ­
                                                            09/30/05           FY 2005

Convictions                                                            28                 55

Civil Judgements                                                       12                 30

Indictments/Informations                                               35                 52

Investigative Recoveries                                     $   428,352       $   830,074

Restitutions and Fines                                       $ 1,004,601       $ 1,577,850

Civil Damages and Penalties                                  $   135,841       $   375,669

Potential Economic Loss Prevented (PELP)                     $   336,390       $   443,626

Community Service Hours                                              125                  405

Disciplinary/Administrative Action                                       1                 1

Civil Complaints                                                         4                14
Criminal Complaints                                                      1                 2

Arrests                                                                  0                 3

Subpoena Service:
 Inspector General                                                      6                 11
 Federal Grand Jury                                                    39                 80
 Trial                                                                 30                 37

U.S. Attorney Referrals                                              103                  231




                                            18
       Semiannual Report to the Congress for the period April 1, 2005 - September 30, 2005




INVESTIGATIVE CASES

During this semiannual period, OI opened 135 investigations and closed 134 cases. The
major sources of case referrals are illustrated below.


                                                           RRB Field Offices - 15%




                                                                  Computer Matches - 2%


                                                                    OIG Developed - 8%


    RRB Headquarters - 54%


                                                                  Hotline - 15%




                                                    Others - 6%



OI's current caseload totals 489 criminal matters, representing approximately $11.6 million
in fraud against the RRB.

                                                            Disability -211 cases
                                                                $5,300,000




                                                                       Sickness - 19 cases
  Unemployment - 101 cases                                                  $91,000
        $541,000
                                                                    Spouse/Dependent - 21 cases
                                                                         $457,000
                                                                  Representative Payee - 22 cases
                                                                        $192,000

                  Retirement -100 cases                  Other - 15 cases
                       $1,846,000                         $3,170,000




                                               19
   Semiannual Report to the Congress for the period April 1, 2005 - September 30, 2005




DISTRIBUTION OF CASES

   The Office of Investigations (OI) conducts its investigations throughout the United
   States in response to complaints or allegations regarding violations of Federal law.


   The map below indicates the number of open investigations that OI currently has in
   each state; there are no open cases in Alaska or Hawaii. Two additional
   investigations are underway in Canada.




                                           20
     Semiannual Report to the Congress for the period April 1, 2005 - September 30, 2005




REPRESENTATIVE INVESTIGATIONS


Retirement Benefit Investigations

                          RRB retirement fraud typically involves the theft and fraudulent
                          cashing of U.S. Treasury checks, or the illicit conversion of U.S.
                          Treasury electronic fund transfers, by someone other than the
                          authorized RRB annuitant. During this reporting period, OI
                          obtained six convictions and one civil judgement for retirement
                          fraud. The defendants in these cases received sentences
                          totaling 14 years probation, six months house arrest and were
                          ordered to perform 75 hours of community service. They were
                          also ordered to pay $309,671 in restitution, $250 in fines,
                          $4,301 in damages and $1,302 in civil penalties. The RRB will
                          recover an additional $151,375 in overpayments as a result of
                          OIG investigations of retirement benefit programs.

                          OI routinely receives referrals from the RRB’s Debt Recovery
                          Division that involve the fraudulent receipt of RRB retirement
                          annuity payments, usually by a relative of a deceased
                          annuitant.

                          Examples of recent retirement cases follow.

Daughter Convicted and Ordered to Repay $226,205

                          OI opened an investigation based on a referral from the RRB’s
                          Omaha, NE District Office. A contact representative had
                          attempted to schedule an appointment with an annuitant to
                          present her with a 100th birthday commemorative plaque. After
                          several attempts, the contact representative determined that
                          the annuitant had died, and the RRB had continued to
                          electronically deposit annuity funds in her account.

                          OI investigation confirmed that the annuitant had died in
                          January 1980, and her daughter had withdrawn the annuity


                                             21
Semiannual Report to the Congress for the period April 1, 2005 - September 30, 2005


                     funds paid after her death. When interviewed, the daughter
                     admitted to the fraudulently withdrawing and using a total of
                     $226,205. She pleaded guilty to a Federal criminal information
                     and was sentenced to three years probation and ordered to pay
                     full restitution to the RRB. The restitution will be paid in
                     monthly installments of $150 or 10% of her gross income,
                     whichever is greater.

Daughter of Deceased Annuitant Agrees to Return $53,622

                     A referral from the RRB’s Joliet, IL District Office involved two
                     annuitants, husband and wife, who resided in Mexico since
                     they began to receive RRB retirement benefits. OI
                     investigation revealed the wife had died in December 1997, but
                     annuity funds totaling $21,420 were paid after her death. The
                     husband died in October 1999 and benefits totaling $32,202
                     were paid after his death. The RRB’s contact representative in
                     Joliet alleged that their daughter may have been the individual
                     responsible for negotiating the funds after their deaths.

                     Because the daughter’s last known address was in
                     Mexico, OI agents contacted a Social Security
                     Administration (SSA) representative located at the
                     American Embassy in Mexico for assistance for locating
                     her. SSA personnel were successful in locating the
                     daughter and requested she report to them for an
                     interview. During the interview, the daughter admitted to
                     negotiating her parents’ annuity funds and signed an
                     agreement to refund overpayment. She agreed to repay
                     the $53,622 to the RRB, at the rate of $1,000 a month.
                     She and her husband are both currently receiving
                     retirement annuities from the RRB based on her
                     husband’s railroad service.




                                        22
Semiannual Report to the Congress for the period April 1, 2005 - September 30, 2005


Divorcee Illegally Collected $58,281

                     OI opened an investigation based on a referral from an RRB
                     program office that alleged that a woman had failed to notify the
                     agency that she had divorced her husband, an RRB annuitant.

                     When interviewed by OI special agents, the woman claimed
                     she had notified an agency district office of her divorce in 1995.
                     A search of agency records found no such notification nor did
                     RRB staff have any recollection of the divorce notification. The
                     woman had collected $58,281 in retirement benefits to which
                     she was not entitled. She was indicted and pleaded guilty for
                     failure to notify the RRB of her divorce. She was sentenced to
                     five years probation, six months home confinement and
                     ordered to pay full restitution to the RRB.

Bank Security Officer Fails to Report Earnings and Must Repay $37,127

                     Another referral from an RRB program office involved a
                     retirement benefits annuitant who had earned over the exempt
                     amount for calendar years 2000 through 2003, and failed to
                     report this work and earnings as required. RRB program staff
                     computed that the annuitant had fraudulently received $37,127
                     in benefits.

                     The subsequent investigation revealed that the annuitant had
                     worked as a security officer at a local bank and had earned
                     approximately $92,000 during the four year period. When
                     interviewed, the annuitant admitted that he had failed to notify the
                     RRB of his earnings, as required. He entered into a Pretrial
                     Diversion Agreement that requires him to pay restitution of $37,127
                     to the RRB. He also agreed to perform 75 hours of community
                     service.




                                          23
    Semiannual Report to the Congress for the period April 1, 2005 - September 30, 2005



Disability Investigations

                         The OIG also conducts fraud investigations relating to the RRB's
                         disability program, which typically involves larger financial amounts
                         and more sophisticated schemes. An individual who receives a
                         disability annuity is restricted to earning not more than $400 in one
                         month. An earnings cap of $4,999 per year also applies. Disability
                         annuitants must report all work activity to the RRB.

                         During this reporting period, OI obtained 12 convictions for
                         disability fraud. The defendants in these cases received sentences
                         totaling thirteen months and one day imprisonment, 29 years
                         probation, one year, four months house arrest and ordered to
                         perform 50 hours of community service. They were also ordered to
                         pay $588,591 in restitution and $925 in fines. The RRB will
                         recover an additional $194,168 as a result of disability fraud
                         investigations concluded during this reporting period. Descriptions
                         of several cases follow.



    Police Community Service Officer Must Pay $198,410 to the RRB

                         Through a detailed earnings query obtained through the Social
                         Security Administration, the RRB’s Retirement Benefits Division
                         identified earnings posted to an occupational disability annuitant’s
                         social security number from the City of Fresno, CA.

                         Subsequent investigation by OI special agents revealed
                         that the annuitant was employed as a police community
                         service officer from January 1995 through July 2003. The
                         subject had obtained his job while awaiting a decision from
                         the RRB regarding his application for disability benefits. In
                         March 1995, the agency informed him that he qualified for
                         an occupational disability benefit retroactive to June 1993.
                         He failed to notify the RRB that he was employed and had
                         earned between $22,000 and $38,000 annually through his
                         employment.




                                              24
Semiannual Report to the Congress for the period April 1, 2005 - September 30, 2005


                     During an interview with OI special agents, the annuitant claimed
                     he had informed the RRB about his employment, but was told that
                     government jobs were exempt from disability earnings limitations.
                     He also stated that RRB publications also included information
                     exempting government earnings, but could not produce the
                     information. He was indicted, pleaded guilty, and was ordered to
                     immediately pay restitution to the RRB in the amount of $198,410,
                     serve six months home confinement and five years probation, and
                     pay a special assessment fee of $100 to the U.S. District Court.

Hotline Complaint Results in $50,349 in Restitution

                     OI received a Hotline complaint concerning an occupational
                     disability annuitant who was allegedly self-employed as an antique
                     automobile restorer. The subject was awarded disability benefits
                     from the RRB in August 1994 based on a herniated disc.

                     OI special agents found that the annuitant had exceeded the
                     disability earnings limitations from February 1988 through March
                     2000, but had failed to report any employment to the agency.
                     Records indicated that he frequently attended and purchased
                     automobiles at auctions in Arkansas, and was licensed by the
                     State of Arkansas to sell used vehicles. From February 1998
                     through March 2000, he purchased and sold 20 vehicles, earning
                     over $10,000 annually.

                     When interviewed, the annuitant denied involvement with auto
                     sales and stated he was in very poor health. Although the special
                     agents presented him with information concerning his earnings, he
                     continued to deny he had purchased and sold cars for profit.

                     A criminal information was filed against the subject, and he
                     subsequently pleaded guilty. He was sentenced to one year
                     probation and ordered to pay restitution of $50,349 to the RRB.




                                          25
Semiannual Report to the Congress for the period April 1, 2005 - September 30, 2005


Bar Owner Must Return $50,000 in Disability Benefits

                     A state wage match with the State of South Dakota identified an
                     individual who had been awarded disability benefits in 1985. In
                     2002, the RRB requested the annuitant to provide any information
                     about employment and earnings that he received since his
                     occupational disability award in 1985. In response, he reported
                     that he worked as a doorman at a local bar since October 1999,
                     earning approximately $400 monthly.

                     However, investigation indicated that the annuitant had, in fact,
                     incorporated the bar in 1986. Social Security Administration
                     records indicated earnings of $16,238 for the period 2000 through
                     2002; in fact, his net income was $131,607. The bar, for which he
                     was the owner/operator, had generated total revenue exceeding
                     $475,000 for the same time period. The subject, when interviewed,
                     told agents he was not required to report his work since his
                     employment was part-time.

                     The annuitant pleaded guilty to a criminal information and was
                     sentenced to 4 months imprisonment, four months home
                     confinement, two years supervised released and ordered to pay full
                     restitution of $50,000 to the RRB for the fraudulently received
                     disability benefits. At the time of sentencing, he made full
                     restitution to the agency.

Annuitant Has Wages Paid Under Wife’s Social Security Number

                     OI initiated another investigation based on another Hotline
                     complaint that alleged that an RRB disability annuitant had
                     significant earnings through his employment at a lumber company.
                     The annuitant had been awarded benefits based on chronic lower
                     back pain.

                     Special agents determined that the subject had fraudulently
                     collected disability benefits from January 1999 through December
                     2004, earning in excess of the exempt earnings limitation. He had
                     also requested that the lumber company to report his wages under



                                          26
   Semiannual Report to the Congress for the period April 1, 2005 - September 30, 2005


                        his wife’s social security number to avoid a reduction in his
                        disability benefits.

                        The RRB subsequently calculated that the annuitant had been paid
                        $84,394 in disability benefits to which he was not entitled. When
                        interviewed, he admitted that he concealed his earnings and
                        pleaded guilty to withholding the information from the RRB. He
                        was sentenced to five years in probation and order to pay full
                        restitution to the RRB.



Unemployment and Sickness Insurance Investigations

                            Unemployment Insurance (UI) and Sickness Insurance (SI)
                            benefit fraud involves individuals claiming and receiving UI or
                            SI benefits while working and receiving wages from an
                            employer, in violation of Federal law. OI receives the majority
                            of these cases for followup investigation from the RRB’s
                            Disability, Sickness and Unemployment Benefits Division as a
                            result of information developed from state wage matching
                            programs. These programs match RRB annuitants with
                            individuals who also had wages reported to the state during the
                            same period of time.

                            During this reporting period, OI obtained 10 convictions and 6
                            civil judgements for UI and SI fraud. Defendants in these cases
                            received, in the aggregate, two months imprisonment, 10½
                            years probation, and one year suspended sentence. They
                            were ordered to pay $52,701 in restitution, $47,069 in
                            damages, $150 in fines, and $11,090 in civil penalties. The
                            RRB will also be able to recover an additional $18,633 as a
                            result of OI investigations.

                            Examples of cases completed this reporting period follow.




                                             27
Semiannual Report to the Congress for the period April 1, 2005 - September 30, 2005


Amtrak Employee Illegally Collected $22,180 in Sickness Benefits

                     The RRB’s Sickness and Unemployment Benefits Division referred
                     a case to OI in January 2005. The subject was allegedly employed
                     by Amtrak in Philadelphia, PA while receiving RRB sickness
                     insurance benefits. When interviewed by OI special agents, the
                     annuitant admitted his failure to report his earnings and
                     acknowledged he was aware that his actions were illegal.

                     He subsequently signed a settlement agreement that requires him
                     to make restitution totaling $22,180 to the RRB. The monies will be
                     made from previously withheld disability annuity payments and
                     from a settlement received from Amtrak in June 2005.

Pennsylvania Wage Match Reveals $6,107 in Fraudulent UI Benefits

                     A wage match with the State of Pennsylvania resulted in a referral
                     to OI concerning an annuitant who was receiving UI benefits on
                     many of the same days that he was employed by the Target
                     Corporation. OI investigation revealed that the annuitant had
                     fraudulently received $6,107 in UI benefits. Under the terms of a
                     settlement agreement with the U.S. Attorney’s Office, the subject
                     will make restitution to the RRB in weekly payments of $50 for 123
                     weeks.

Judge Doubles Judgement to $13,700

                     The RRB referred another case to OI as the result of a wage match
                     with the State of California. The program identified an RRB
                     unemployment insurance claimant who received wages while
                     claiming RRB unemployment benefits. He falsely certified that he
                     did not work on days and received $6,850 in benefits to which he
                     was not entitled. The U.S. Attorney’s Office filed a civil complaint
                     against the subject. The U.S. District Court, Sacramento, CA filed
                     a stipulated judgement against the subject for $13,700. Of this
                     amount, the RRB will receive the original overpayment of $6,850
                     and the interest pertaining to this sum.




                                          28
   Semiannual Report to the Congress for the period April 1, 2005 - September 30, 2005



Employee Misconduct

                        OI also has the responsibility for ensuring agency integrity by
                        investigating alleged misconduct by RRB employees.

                        OI special agents initiated an investigation of an RRB field office
                        employee based upon a referral from a railroad employer. The
                        agents determined that actions by the employee had resulted in the
                        unauthorized disclosure of identity information for employees to the
                        Chairman of a major railroad union. These actions were in
                        violation of the Privacy Act and RRB policy.

                        The employee’s actions did not meet the criteria established by the
                        U.S. Attorney’s Office for criminal prosecution. Based on the OI
                        investigation, the RRB issued a letter of counseling to the
                        employee.

                        As a result of the investigation, OI also provided recommendations
                        to agency management to assist in eliminating similar incidents in
                        the future. However, the RRB has declined to implement the
                        majority of these recommendations.




                                             29
   Semiannual Report to the Congress for the period April 1, 2005 - September 30, 2005




AFFIRMATIVE CIVIL ENFORCEMENT (ACE) PROGRAM

                        OI continues to pursue prosecution of cases under the Department
                        of Justice's Affirmative Civil Enforcement Program. This program
                        involves "fast track" civil prosecution of cases under the provisions
                        of the Title 31, U. S. Code, Sections 3729-3733, The Civil False
                        Claims Act. This statute allows the government to recover up to
                        triple damages as well as $5,000 to $10,000 for each false claim
                        submitted.

                        The Department of Justice frequently obtains double damages
                        through these civil false claims prosecutions. The judgements
                        obtained in these cases also provide the agency with an efficient
                        and effective basis to pursue their collection activities.

                        The ACE Program continues to provide an efficient means to
                        address fraud against agency programs, particularly where the
                        fraud losses are below the financial guidelines for criminal
                        prosecution. It also is an effective way to return fraud losses to the
                        RRB's trust funds and create a deterrent against future fraud.

                        During this reporting period, seven civil judgements under the ACE
                        program were entered by Federal district courts which will result in
                        the return of $58,562 to the government when the funds are
                        collected.




                                             30
Semiannual Report to the Congress for the period April 1, 2005 - September 30, 2005




                             HOTLINE CALLS

The Office of Inspector General established its Hotline to receive complaints
concerning suspected fraud, waste and abuse in RRB programs and operations. The
Hotline provides an open line of communication for individuals to report suspected
criminal activity, conflict of interest, mismanagement, and waste of RRB funds.



                                                                 04/01/05
                                                                 09/30/05         FY 2005


Total Contacts: (Telephone Calls and Letters)                           568           1048


    Referred to: RRB-OIG, Office of Investigations                       32             82


    RRB Bureaus/Offices                                                 309            587


    Other Federal Agencies                                               20             46


    RRB Medicare Carrier/Durable Medical Equipment
    Regional Carriers                                                       1            2


    Other (misdirected calls, follow-up calls to agents,
    etc.)                                                               200            315
    Calls for which there was insufficient information to
    substantiate an allegation or to make a referral                       6            16




                                          31
      Semiannual Report to the Congress for the period April 1, 2005 - September 30, 2005




LEGISLATIVE &
REGULATORY REVIEW

The Inspector General Act requires the Inspector General to review existing and proposed
legislation and regulations relating to the programs and operations of the agency, and to make
recommendations in the semiannual report concerning the impact on the economy and
efficiency of the agency’s administration of its programs and on the prevention of fraud and
abuse.

The OIG has no comments for this reporting period.




                                                32
   Semiannual Report to the Congress for the period April 1, 2005 - September 30, 2005




APPENDIX A

REPORTS ISSUED

   #	   Review of Internal Control Over the Actuarial Projection Process, 

        May 5, 2005


   #	   Review of Customer Service Performance Measures for Timeliness of Initial
        Railroad Retirement Annuity Payments, May 17, 2005

   #	   Review of Compliance with the Prompt Payment Act, June 15, 2005

   #	   DSD Labs Security Test and Evaluation Reports, June 7, 2005

   #	   Evaluation of Survivor Annuity Work Deductions at the Railroad Retirement
        Board, July 14, 2005

   #	   Review of Access Controls in the End-User Computing General Support System,
        July 18, 2005

   #	   Review of Internal Control Over Budget Execution, September 6, 2005

   #	   Retired Employee Work Deductions Prior to Full Retirement Age,

        September 19, 2005


   #	   Fiscal Year 2005 Evaluation of Information Security at the Railroad Retirement
        Board, September 28, 2005




                                             33
       Semiannual Report to the Congress for the period April 1, 2005 - September 30, 2005




APPENDIX B

           INSPECTOR GENERAL ISSUED REPORTS WITH

                     QUESTIONED COSTS


                                                                Questioned          Unsupported
                                                Number            Costs                Costs

A. For which no management decision had
been made by April 1, 2005                         0                 0                       0


B. Which were issued from April 1, 2005
through September 30, 2005                         1              $ 8,300                    0


Subtotals (A + B)                                  1              $ 8,300                    0


C. For which a management decision was
made from April 1, 2005 through
September 30, 2005                                 1              $ 8,300                    0


(i) dollar of disallowed costs                                    $ 2,835                    0


(ii) dollar value of costs not disallowed                         $ 5,465                    0


D. For which no management decision had
been made by September 30, 2005                    0                 0                       0


Reports for which no management decision
was made within six months of issuance             0                 0                       0




                                                 34
      Semiannual Report to the Congress for the period April 1, 2005 - September 30, 2005




          INSPECTOR GENERAL ISSUED REPORTS WITH

          RECOMMENDATIONS THAT FUNDS BE PUT TO 

                       BETTER USE 



                                                          Number                 Dollar Value

A. For which no management decision had been
made by April 1, 2005                                        0                              0


B. Which were issued from April 1, 2005 through
September 30, 2005                                           3                    $ 3,680,000


Subtotals (A + B)                                            3                   $ 3,680,000


C. For which a management decision was made
from April 1, 2005 through September 30, 2005                3


(i) dollar value of recommendations that were agreed to
by management                                                                    $ 3,680,000


(ii) dollar value of recommendations that were not
agreed to by management                                                                     0


D. For which no management decision had been made
by September 30, 2005                                        0


Reports for which no management decision was made
within six months of issuance                                0




                                                     35
   Semiannual Report to the Congress for the period April 1, 2005 - September 30, 2005




APPENDIX C
REPORT ON RECEIVABLES, WAIVERS, AND RECOVERIES
   The FY1999 appropriations language for this office requires the reporting of additional
   information concerning actual collections, offsets and funds put to better use achieved
   as a result of Inspector General activities.

   Office of Audit

               Funds to be put    Funds Agreed         Receivables                   Recoveries
     Report      to better use    by Management        Established      Waivers         to date

     99-03     $         50,850   $          50,850    $     50,580   $    50,490    $       360
     99-14               83,000             83,000*          34,423                       30,584
     99-16           48,000,000         48,000,000                                   $ 8,000,000
     99-17           11,000,000         11,000,000                                     1,604,535**
     00-16              235,000            235,000                                      253,846***
     04-06              821,000            821,000         629,688                      585,282
     04-10              400,000            400,000
     05-03            1,800,000           1,800,000
     05-06               10,000               10,000
     05-07            1,070,000           1,070,000
     05-10            2,600,000           2,600,000

   * This figure includes monies owed to the agency and overpayments which must be refunded.
   ** This figure represents case corrections that resulted in receivables, annuitant payments,
      employer tax credits and liabilities. 

   ***This figure represents returned payments credited to debtor accounts.


   Office of Investigations

   Recoveries realized by the RRB resulting from court-ordered restitution and civil damages:

     FY 1999                                                           $      855,655

     FY 2000                                                               1, 038,134

     FY 2001                                                                  990,356

     FY 2002                                                                  785,843

     FY 2003                                                                  947,876

     FY 2004                                                                  646,273

     FY 2005                                                                  844,183





                                                  36
        Semiannual Report to the Congress for the period April 1, 2005 - September 30, 2005




APPENDIX D
RRB MANAGEMENT REPORTS
(The information contained in this section has been provided by RRB management.)


                MANAGEMENT REPORT ON FINAL ACTION

               ON AUDITS WITH DISALLOWED COSTS FOR

           THE SIX MONTH PERIOD ENDING SEPTEMBER 30, 2005



                                                                                          Disallowed
                                                                  Number                    Costs
 A. Audit reports, with management decisions, on
 which final action had not been taken at the
 beginning of the period.                                             0                        0

 B. Audit reports on which management decisions
 were made during the period.                                         1                     $ 2,835*

 C. Total audit reports pending final action during
 the period.                                                          1                     $ 2,835

 D. Audit reports on which final action was taken
 during the period.

 1. Recoveries

    (a) Collections                                                   0                        0
    (b) Property
    (c) Other


 2. Write-offs                                                        0                        0


 3. Total of 1 and 2                                                  0                        0


 E. Audit reports needing final action at the end of                  1                     $2,835
 the period.



* Identified in Audit Report 05-09, “Review of Internal Control Over Budget Execution.”




                                                         37
        Semiannual Report to the Congress for the period April 1, 2005 - September 30, 2005



    MANAGEMENT REPORT ON FINAL ACTION ON AUDITS WITH

   RECOMMENDATIONS TO PUT FUNDS TO BETTER USE FOR THE

       SIX MONTH PERIOD ENDING SEPTEMBER 30, 2005



                                                                                           Funds to be put
                                                                 Number                     to better use
 A. Audit reports, with management decisions, on
 which final action had not been taken at the
 beginning of the period.                                            4                      $ 50,729,996 *

 B. Audit reports on which management decisions
 were made during the period.                                        2                      $ 1,080,000 **

 C. Total audit reports pending final action during
 the period.                                                         6                      $ 51,809,996

 D. Audit reports on which final action was taken
 during the period.

 1. Value of recommendations implemented.                            1                      $ 48,000,000

 2. Value of recommendations that management
 concluded should not or could not be implemented.
                                                                     0                      $    0

 3. Total of 1 and 2.                                                0                      $ 48,000,000

 E. Audit reports needing final action at the end of
 the period.                                                         4                      $ 3,809,996


* Comprised of the following amounts: $48,000,000 from Audit Report 99-16, “Financial Interchange: Status of Prior
Recommendations for Change;” and $529,996 from Audit Report 01-11, “Review of the Quality of the Debt
Recognition and Collection Process for Railroad Retirement Act Overpayments,” $400,000 from Audit Report
04-10, “Review of Spouse Annuity Work Deductions at the Railroad Retirement Board,” and $1,800,000 from Audit
Report 05-03, “Evaluation of the RRB’s Processing of Disability Earnings Cases.”

**Comprised of $10,000 from Audit Report 05-06, “Review of Compliance with the Prompt Payment Act,” and
$1,070,000 from Audit Report 05-07, “Evaluation of Survivor Annuity Work Deductions at the Railroad Retirement
Board.”




                                                       38
        Semiannual Report to the Congress for the period April 1, 2005 - September 30, 2005




     MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS
     OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING
                 AS OF SEPTEMBER 30, 2005

                                                       Funds to be
                                         Disallowed       put to              Reason action has not
          Report               Date        Costs        better use               been completed

Review of Quality             1/22/97      None              None      The remaining recommendation will be
Assurance Activities                                                   addressed in conjunction with efforts
(97-06)                                                                to improve calculation and reporting of
                                                                       performance measures.

Review of Non-Priority        3/13/97      None              None      The Office of Programs plans to
Correspondence Handling                                                implement a tracking system in FY
(97-09)                                                                2006 to close the remaining
                                                                       recommendation.

Information Systems           6/28/00      None              None      The agency has implemented 13
Security (INFOSEC)                                                     recommendations, and is working to
Assessment Report                                                      close out the remaining 2.

Review of Document            11/17/00     None              None      The agency is making progress, using
Imaging - Railroad                                                     hardware and software approaches, to
Unemployment Insurance                                                 improve server backup and disaster
Act Programs (01-01)                                                   recover capabilities.

Audit of the RRB’s            2/23/01      None              None      The Bureau of Information Services is
FY 2000 Financial                                                      working to enhance problem reporting
Statements (01-03)                                                     and phase out obsolete servers.

Site Security Assessment      7/20/01      None              None      The Bureau of Information Services
for the Office of Inspector                                            has closed out 10 recommendations,
General (Blackbird #1)                                                 and is in the process of addressing the
                                                                       last 2.

Review of the Quality of       8/9/01      None            $ 529,996   The Office of Programs will evaluate
the Debt Recognition and                                               the results of a case review and hopes
Collection Process for                                                 to issue findings by January 2006.
RRA Overpayments
(01-11)

Security Controls Analysis    8/17/01      None              None      The Bureau of Information Services
for the Office of Inspector                                            has closed 35 recommendations and
General (Blackbird #2)                                                 is developing needed documentation
                                                                       for the remaining 3.

Review of Information          2/5/02      None              None      The Bureau of Information Services
Security at the Railroad                                               has closed 18 recommendations and
Retirement Board                                                       is currently addressing the remaining
(02-04)                                                                10.




                                                      39
        Semiannual Report to the Congress for the period April 1, 2005 - September 30, 2005




     MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS
     OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING
                 AS OF SEPTEMBER 30, 2005


                                                   Funds to be
                                      Disallowed      put to             Reason action has not
         Report             Date        Costs       better use              been completed

FY 2002 Evaluation of      8/27/02      None            None      The agency recently awarded a new
Information Security at                                           contract for offsite disaster recovery
the RRB (02-12)                                                   services and is developing necessary
                                                                  procedural documentation..

Evaluation of the Self-    12/27/02     None            None      The Bureau of Information Services
Assessment Process for                                            was able to use automated software
Information System                                                tools to conduct security assessments
Security (03-02)                                                  on some systems, and hopes to
                                                                  complete the remaining ones during
                                                                  FY 2006.

Evaluation of the RRB E-   12/27/02     None            None      The Bureau of Fiscal Operations
government Initiative:                                            closed nine recommendations and is
RUIA Contribution                                                 working on an MOU with Treasury to
Internet Reporting and                                            close the remaining two.
Payment (03-03)

Inspection of Unverified   3/20/03      None            None      The Office of Programs has reviewed
Records in the RRB’s                                              most of the almost 20,000 identified
Employment Data                                                   records and is developing procedures
Maintenance System                                                to verify employer-reported data for
(03-06)                                                           individual railroad workers.

Review of the RRB’s         9/8/03      None            None      The Bureau of Information Services
PIN/Password System                                               will establish procedures as part of its
for On-Line                                                       standards update for Report
Authentication                                                    03-10 to close the remaining
(03-09)                                                           recommendation.

Review of the Systems       9/8/03      None            None      The Bureau of Information Services
Development Life Cycle                                            recently completed migration of new
for End-User Computing                                            project management software which
(03-10)                                                           should help address the remaining
                                                                  recommendations.

RRB’s Railroad             5/12/04      None            None      The Office of Programs plans to
Retirement Act                                                    complete a review of sampled items
Document Imaging                                                  during the first half of FY 2006 to close
Process: Reliability of                                           the remaining recommendation.
Images from Scanned
Paper Documents
 (04-02)




                                                   40
        Semiannual Report to the Congress for the period April 1, 2005 - September 30, 2005




     MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS

     OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING

                 AS OF SEPTEMBER 30, 2005


                                                          Funds to be
                                        Disallowed           put to            Reason action has not
         Report                Date       Costs            better use            been completed

Management Information        5/17/04     None               None       The Bureau of Fiscal Operations will
Report - Opportunities to                                               address the remaining
Improve the RRB’s                                                       recommendation by improving the
Performance and                                                         presentation in the FY 2005
Accountability Report                                                   Performance and Accountability
(04-03)                                                                 Report.

Review of Accounts            7/29/04     None               None       Software enhancements should close
Receivable Established                                                  two of the remaining
Under the Railroad                                                      recommendations, while mainframe-
Unemployment Insurance                                                  based programming changes will be
Act (04-06)                                                             needed to close the final one.

Review of Mainframe           9/7/04      None               None       The Bureau of Information Services
Access Controls at the                                                  has sent guidance to subsystem
Application Level - Federal                                             managers and is investigating
Financial System (04-07)                                                methodologies for improved quality
                                                                        assurance.

Review of Mainframe           9/7/04      None               None       Read-only access is being added to
Access Controls at the                                                  the one system lacking it, and
Application Level - RRB                                                 improved quality assurance
Developed Applications                                                  methodologies are under investigation.
Controlled by ACF2 and
IDMS (04-08)

Review of Mainframe           9/7/04      None               None       Agency staff are reviewing security
Access Controls at the                                                  profiles, security-related transactions,
Application Level ­                                                     and investigating improved quality
Program Accounts                                                        assurance methodologies.
Receivable System
(04-09)




                                                     41
      Semiannual Report to the Congress for the period April 1, 2005 - September 30, 2005




APPENDIX E
REPORTING REQUIREMENTS

Inspector General Requirements                                                                   Page

    Section 4(a)(2) - Review of Legislation and Regulations                                         32
    Section 5(a)(1) - Significant Problems, Abuses, and Deficiencies                                 5
    Section 5(a)(2) - Recommendations With Respect to Significant Problems,
     Abuses, and Deficiencies                                                                        6
    Section 5(a)(3) - Prior Significant Recommendations Not Yet Implemented                          6
    Section 5(a)(4) - Matters Referred to Prosecutive Authorities                                   18
    Section 5(a)(5) - Instances Where Information Was Refused                                    None
    Section 5(a)(6) - List of Audit Reports                                                         33
    Section 5(a)(7) - Summary of Each Significant Report                                             5
    Section 5(a)(8) - Statistical Tables on Management Decisions on Questioned Costs                34
    Section 5(a)(9) - Statistical Tables on Management Decisions on
     Recommendations That Funds Be Put to Better Use                                                35
    Section 5(a)(10) - Summary of Each Audit Report Over 6 Months Old
     For Which No Management Decision Has Been Made                                              None
    Section 5(a)(11) - Description and Explanation for Any Significant
     Revised Management Decision                                                                 None
    Section 5(a)(12) - Information on Any Significant Management Decisions
     With Which the Inspector General Disagrees                                                  None


Management Requirements


    Section 5(b)(1) - Comments Deemed Appropriate                                    Transmittal Letter
    Section 5(b)(2) - Statistical Table on Final Action on Disallowed Costs                         37
    Section 5(b)(3) - Statistical Table on Final Action To Put Funds to Better Use                  38
    Section 5(b)(4) - Statement on Audit Reports With Final Action Pending                          39




                                                42
              REPORT


FRAUD, WASTE AND ABUSE





Call the OIG Hotline:
         1-800-772-4258

E-mail:    Hotline@oig.rrb.gov

The OIG cannot ensure confidentiality to
persons who provide information via e-mail.
Do not send information by e-mail that you
do not want a third party to read.

Write: 	RRB-OIG Hotline Officer
        844 North Rush Street
        Chicago, IL 60611-2092
